                                  United States Department of Agriculture
                                        Office of Inspector General
                                         Washington, D.C. 20250


DATE:               February 3, 2011

AUDIT
NUMBER:             03601-28-KC (2)

TO:                 Jonathan Coppess
                    Administrator
                    Farm Service Agency

ATTN:               Philip Sharp
                    Acting Director
                    Operations Review and Analysis Staff

FROM:               Gil H. Harden /s/
                    Assistant Inspector General
                      for Audit

SUBJECT:            Recommendations for Preventing or Detecting Schemes or Devices
                    Biomass Crop Assistance Program Controls over Collection, Harvest, Storage,
                    and Transportation Matching Payments Program


Summary

The Biomass Crop Assistance Program (BCAP) was authorized by the Food, Conservation, and
Energy Act of 2008 (2008 Farm Bill) to support the establishment and production of eligible
crops of renewable biomass.1 Bioenergy production plays a key role in the Administration’s
efforts to achieve homegrown sustainable energy options.2 One portion of BCAP involves
matching payments to assist agricultural and forest landowners and operators with the cost of
collection, harvest, storage, and transportation (CHST) of eligible material for use in a qualified
biomass conversion facility. This provides an incentive for collecting underutilized biomass,
such as crop residue and wood waste, for energy production.3 Funding for this portion of BCAP
begun under the authority of a Notice of Funding Availability (NOFA) that occurred before the
issuance of the final regulation that implemented the full program. Before the NOFA was
terminated,4 a total of over $243 million was spent on the CHST portion in calendar years 2009
and 2010.5

1
    Biomass is organic material that can be converted into heat, power, bio-based products, or advanced biofuels.
2
    “Memorandum on Biofuels and Rural Economic Development,” Daily Compilation of Presidential Documents, dated May
    5, 2009.
3
    Farm Service Agency, “Fact Sheet: The Biomass Crop Assistance Program,” dated June 2010. Congressional Research
    Service, “Biomass Crop Assistance Program: Status and Issues,” dated August 13, 2010.
4
    With the final rule announcement on October 27, 2010, the CHST program has been reauthorized.
5
    Farm Service Agency, “BCAP CHST Summary Report,” dated October 20, 2010.
Jonathan Coppess                                                                                                                   2


BCAP is a new program unlike any other that Farm Service Agency (FSA) has historically
delivered. Additionally, the CHST portion of BCAP resulted in very high FSA county office
workload in many areas minimally staffed because of limited production agriculture activities,
and participation by a producer base not normally accustomed to doing business with FSA. At
the request of FSA, the Office of Inspector General (OIG) reviewed the CHST portion of BCAP
upon its commencement, focusing on the efficacy of processes and controls used in
implementing the NOFA, and to issue recommendations that can assist FSA when implementing
the full BCAP upon publication of the final regulation. Based on our review of 12 county office
operations in 4 States, we found 3 cases where potential schemes or devices were carried out by
material suppliers or biomass conversion facilities. The arrangements and transactions in these
three cases appear to have been conducted with the aim of circumventing the intent of CHST
program agreement terms and guidelines. These cases involved the following: a biomass
conversion facility that may have sought “kick-backs” from matching payments received for
deliveries to its facility; a biomass conversion facility that sold its material through a broker and
indirectly received matching payments it was not eligible for; and an arrangement in which one
participating material supplier allowed three other participating material suppliers to make
deliveries at a particular biomass conversion facility using its name and account, and thus receive
matching payments they were not eligible for. (We referred the three cases to OIG
Investigations. OIG Investigations is discussing these three cases with the Civil Division of the
U.S. Attorney’s Office.)

Though questionable cases such as these sometimes emerge in a program such as CHST,6 the
confusion created by a lack of prohibited practices or activities in the agreement terms and
guidance provided little notice or deterrence to participants. In an effort to quickly implement
the program to comply with a Presidential Directive, FSA left its field personnel without
adequate guidance and oversight controls to detect, identify, and take action against potential
schemes or devices.

We recommend that FSA evaluate the three cases and determine whether they constitute a
scheme or device. To prevent reoccurrence, we recommend that FSA issue new agreement terms
and/or guidance that address schemes or devices more comprehensively and specifically prohibit
arrangements and transactions of this nature. FSA should also develop and implement new
controls and review processes for detection and prevention. Before implementing any corrective
actions, FSA should coordinate with OIG Investigations. These issues are being provided in a
Fast Report format to aid FSA as it moves forward with re-implementation of the CHST
program. This Fast Report provides only a few examples of the problems and deficiencies found
by OIG; a full draft report with greater scope and detail will be provided at the completion of our
fieldwork.




6
    In Notice BCAP-8, dated April 1, 2010, FSA said it had received reports of possible abuses, and instructed county offices to
    report possible fraud, waste, or abuse by biomass conversion facilities.
Jonathan Coppess                                                                                                              3


Background

The 2008 Farm Bill authorized such sums as are necessary to carry out BCAP, and in 2009,
BCAP received $25 million in funding. The 2010 Supplemental Appropriations Act7 capped
BCAP funding at $552 million in fiscal year 2010. BCAP supports two sets of activities. First,
it provides funding for “matching payments” for certain eligible material sold to qualified
biomass conversion facilities. CHST matching payments are made at a rate of $1 for each $1 per
dry ton8 paid by a qualified biomass conversion facility, in an amount up to $45 per dry ton.
Second, BCAP provides funding for producers to establish and maintain renewable biomass
crops in specified project areas. This second part of the program had not yet been implemented
at the time of our review.

On May 5, 2009, the President issued a directive calling for the acceleration of investment in and
production of biofuels.9 In particular, the directive called for the issuance of guidance and
support related to the collection, harvest, storage, and transportation of eligible materials for use
in biomass conversion facilities within 30 days. In order to comply with this directive, on June
11, 2009, the Commodity Credit Corporation (CCC) published a BCAP notice of funds
availability (NOFA) in the Federal Register for the collection, harvest, storage, and
transportation of eligible materials. FSA administers this program on behalf of the CCC. The
NOFA was terminated after the proposed rule was issued on February 3, 2010. Deliveries were
allowed to continue through April 30, 2010.

We initially selected Missouri for our review because it allowed us to test our audit program and
it was in close proximity to our office conducting the field work. We then selected offices in
Alabama, California, and Maine because they distributed the largest amounts of matching
payments to program participants. They also represented a diverse range of biomass industries
and varying geographical regions. County offices were selected primarily based on payment
volume. The national office was reviewed to gain perspective on overall program
administration.

Results

During our review, OIG identified two cases in California and one case in Maine where potential
schemes or devices were carried out by participating material suppliers, and/or biomass
conversion facilities. The arrangements and transactions carried out in the three cases appear to
have been created with the aim of participants circumventing the intent of CHST program
agreement terms and guidelines.

Case A involved a tiered-pricing structure developed by a biomass conversion facility in which
material suppliers participating in the CHST program were paid lower per ton rates than those
who were not part of the program, in anticipation that the participants would later receive

7
  Public Law 111-212.
8
  The final rule states that, “One dry ton is the amount of renewable biomass that would weigh one U.S. ton at zero percent
  moisture content.”
9
  Published in the Federal Register (FR) on May 7, 2009 (74 FR 21531-21532).
Jonathan Coppess                                                                                                               4


matching payments. The lower rates could, in effect, be viewed as a “kick-back” as described in
program guidance. Case B involved a qualified biomass conversion facility, which also sold
biomass material, that was selling its material to a participating material supplier. The supplier
then received matching payments for this material and indirectly shared them with the facility.
The facility was not a program-registered material supplier, and was also commingling material
it purchased from suppliers—creating a situation where loads of material may have received two
matching payments. Case C consisted of an arrangement in which one participating material
supplier allowed three other participating material suppliers to use his unfilled, obligated CHST
delivery allocation payment funds at a certain biomass conversion facility, in exchange for a fee.
The other three suppliers had either used up the bulk of their CHST obligations, or were not
approved to receive matching payments for deliveries to the facility in question.

The expedited timeline in which FSA implemented the CHST program left field personnel
without clear guidance on how to detect, identify, and investigate questionable practices such as
these three cases. The general definition of scheme or device in the terms of the agreement
between USDA and program participants10—coupled with the inadequate BCAP Notice
guidance that was subsequently released—did not provide FSA personnel with adequate tools to
accurately determine which business practices are acceptable and which could be aimed at
circumventing the program’s intent.

In contrast to FSA’s normal practice of issuing handbooks to aid the day-to-day administration of
a large program, no handbook was issued for the CHST program under the NOFA. Instead, FSA
relied on a series of notices and question and answer sheets, which provided limited program
guidance. Also, FSA did not create adequate proactive controls to help county personnel identify
possible schemes or devices. In fact, only one control was created specifically for the CHST
program.11

Questionable cases like these sometimes emerge in a program and a lack of adequate
prohibitions, guidance, and controls did not help to deter actions by participants to manipulate
the program. As a result, our review found that FSA distributed over $83,880 in payments for
biomass material that may not have been eligible for the payments. In two of the three cases that
OIG identified, county offices were not aware of the situations and, therefore, did not question
participants or block payments. In Case B, the county office did deny some matching payments
for ineligible biomass material, but did not investigate further to determine if the case would
constitute a scheme or device. In the context of our broad review, many county office officials
claimed that the volume of paperwork required as documentation made a thorough eligibility
review impractical, and that they lacked resources to effectively administer the NOFA.



10
   The NOFA, dated June 11, 2009, defines scheme or device as (but not limited to) “coercion, fraud, misrepresentation,
   depriving any other person of a payment, or obtaining a payment that otherwise would be payable.” This is a general definition
   often used in order to allow for further guidance and interpretations by the administering agency. Penalties detailed in the
   NOFA include refunding any program payments paid with interest, and loss of program eligibility.
11
   County offices are required to conduct an in-person review of a biomass conversion facility before releasing a payment over
   $50,000. No procedures on how to conduct or document this review were issued. FSA has other, more general controls (such
   as recommending second-party review of payment calculations) for programs it administers.
Jonathan Coppess                                                                                                                     5


The final rule, issued on October 27, 2010, contains the same scheme or device definition as the
original agreement terms, with one addition requiring more detailed disclosures when land
ownership changes. However, the specific situations in the three cases OIG identified have not
been addressed, with the possible exception of Case A. The final rule does specify that qualified
biomass conversion facilities must “pay fair market value for eligible material regardless of
whether the seller has applied for or receives a matching payment authorized by this subpart.”12
Also, the responses to comments included with the final rule do provide some more detailed
examples of situations that would constitute a scheme or device. Penalty and appeal actions,
based on standard FSA language, are the same as those described in the NOFA.

While the final rule makes some limited progress towards addressing uncertainties regarding the
definition of scheme or device, FSA must continue to strengthen CHST program agreement
terms, guidance, and oversight controls.13 If more comprehensive agreement terms and guidance
are not issued before the CHST program is re-implemented, FSA runs the risk of such situations
continuing unchecked and improper payments being made. Further, given the volume of
documentation required for the CHST program, personnel may be handicapped in their ability to
detect questionable practices if FSA does not create specific, proactive controls to guide them.

          Case A

          This case involved a participating material supplier in California that allegedly denied its
          program participation status to a biomass conversion facility in order to receive a higher
          price per ton, as the facility was paying a lower price per ton to CHST program
          participants. This situation emerged during our interview with representatives from the
          facility, who complained about the supplier’s behavior. Upon hearing of the situation,
          OIG found contracts in a FSA county office that showed the facility had agreed to pay the
          supplier a price per ton of $20 for a certain period of time. However, since the supplier
          never confirmed its participation in the program, it was actually paid the higher rate of
          $28 per ton for this period and received matching payments based on that amount. The
          facility’s representatives then sought to recoup the losses they felt the facility had
          incurred. They informed the supplier that they would deduct the difference in payment
          rates, totaling approximately $11,700, from future per ton payments on deliveries from
          the provider. As of the date of our review, no deductions had been made, as the facility
          said it planned to incorporate the offsets into its next contract with the supplier.

          This case could be viewed as a “kick-back,” as described in Notice BCAP-8, which
          prohibited a biomass conversion facility from requiring participating material suppliers to
          “return any portion of their matching payments to [a] BCF for any reason.” The lower
          per ton payments for program participants—and the concept that the extra money
          received by the participating material supplier needed to be repaid—both imply that the
          facility sought to indirectly receive matching payment funds.14

12
   Biomass Crop Assistance Program Final Rule, 7 CFR Part 1450, October 27, 2010.
13
   OIG has other concerns about the final rule that are not addressed in this Fast Report, but will be included in our forthcoming
   full report.
14
   The potential “kick-back” is the immediate concern of this Fast Report. However, we believe the supplier’s alleged
Jonathan Coppess                                                                                                                6



         County office officials said that they were not aware of the facility’s tiered-payment
         structure, or the contract payment discrepancy in their files. After learning the details of
         the case, they commented that even if they had noticed the discrepancy, they would not
         have been likely to question it, as the payment was not close to the $45 per ton CHST
         payment limit.

         Case B

         In this case, a CHST program-qualified biomass conversion facility (BCF 1) owned land
         with walnut trees and harvested walnut shells as biomass material. Instead of registering
         as a material supplier in order to receive matching payments,15 BCF 1 sold material to a
         broker that was a participating material supplier. BCF 1 received $42 per ton from the
         broker; the broker then sold the material to another biomass conversion facility (BCF 2)
         for $24 per ton. The arrangement was profitable only after matching payments were
         received (for a per ton total of $48, with a $6 per ton profit for the broker). Therefore,
         BCF 1 was indirectly receiving matching payments it was not eligible for.

         This situation was further complicated by the fact that BCF 1 bought walnut shell
         biomass material from the broker to create fuel products for sale to the public. The
         broker received matching payments for these loads (as BCF 1 was a program-qualified
         facility). While representatives of BCF 1 claimed that the walnut biomass purchased
         from the broker was distinct from the walnut biomass sold to the broker, they admitted
         that all walnut biomass—either its own or from outside suppliers—was commingled
         when it reached the facility. So, the biomass material that had already received matching
         payments (bought by BCF 1 from the broker) could have then been sold to BCF 2 for a
         second matching payment.16

         The county office questioned the source of the materials when it calculated program
         payments and moved quickly to seek clarification. In a letter to the broker, it asked for
         documentation to show that the material sold to BCF 2 was separate from the material
         sold by the broker to BCF 1. The letter cited Notice BCAP-2, Section 2 D, which states
         that “eligible material for which a payment has already been applied… is ineligible for
         CHST matching payments.” No documentation was provided, so the county office
         moved to block $9,393 in matching payments. Due to human error, country office
         personnel still issued over $5,060 in matching payments for material purchased from
         BCF 1.

         While FSA was correct in denying matching payments for these loads, it did not
         investigate further to determine whether the situation would constitute a scheme or

   misrepresentation also merits further investigation by FSA.
15
   BCF 1 could have been qualified to receive matching payments had it elected to participate as a biomass material supplier with
   ownership over eligible material that was not processed at its facility and was sold at arm’s length to an unrelated facility.
16
   OIG found no evidence that such duplicate payments occurred.
Jonathan Coppess                                                                                                            7


            device. If FSA had investigated this case, it could have discovered—among other
            possible circumventions of agreement terms and guidance—that matching payments were
            being shared with a biomass conversion facility that was not eligible to receive them.

            Case C

            In Maine, two participating material suppliers were prevented from delivering eligible
            biomass material to the biomass conversion facility (BCF 3) where they held CHST
            program fund obligations, as the facility had reached its capacity and had reduced its
            acceptance of deliveries. A third participating material supplier had nearly completed
            delivery of the entire quantity of material that was approved for his program fund
            obligation at a second facility (BCF 4).17 Two of the three suppliers filed requests for
            relief seeking approval to either deliver their approved quantities of material to other
            facilities, or to increase the quantity of material approved for matching payments. Upon
            learning that similar requests for relief were denied, one withdrew his request; the other
            request remained filed but was never acted upon.

            Through mutual contacts, all three suppliers entered into arrangements with a fourth
            participating material supplier who had an unfulfilled matching payment obligation at
            BCF 4 (which was still accepting deliveries). The fourth supplier agreed to let the others
            deliver material to BCF 4 using its name and account. The fourth supplier passed on all
            per ton payments received from the facility—and all matching payments—to the three
            suppliers responsible for delivery of the material, minus a $3 per ton fee retained by the
            fourth supplier as compensation. Because of this questionable arrangement, FSA should
            not have issued $78,820 in matching payments for material attributable to these suppliers,
            who were not eligible to receive such payments for this facility. OIG determined that
            BCF 4 was aware of these arrangements and provided delivery documentation that
            clearly attributed loads delivered by the other three suppliers under the fourth supplier’s
            account.

            County office officials had copies of the agreements between the four suppliers and the
            delivery documentation submitted by the fourth supplier in their files. They stated that
            they were not aware of the potential program impact of these arrangements, and did not
            realize the situation was potentially improper.

Because of their possible legal improprieties, OIG referred the three cases to OIG Investigations.
OIG Investigations is discussing these three cases with the Civil Division of the U.S. Attorney’s
Office. As such, please coordinate with OIG Investigations before proceeding with any
corrective actions on the three cases.

Given the problems we found, we are recommending that FSA take the following steps before
any future implementation of the BCAP CHST program:


17
     BCF 3 and BCF 4 are separate facilities owned by the same parent company. They share a material procurement manager.
Jonathan Coppess                                                                                 8


       (1) Evaluate the circumstances of all three cases to determine whether such situations
           constitute a scheme or device. (Before proceeding with corrective actions on any of
           the three cases, please coordinate with OIG Investigations.)

       (2) Create new terms of agreement and/or guidance that address scheme or device more
           comprehensively, and specifically prohibit schemes or devices of this nature. As part
           of issuing a program handbook, include guidance that details procedures for
           investigations, enforcement actions, penalties, and appeals related to scheme or
           device determinations.

       (3) Create controls and compliance review procedures at the county office level designed
           to detect and identify potential schemes or devices.

Please provide a written response within 5 days outlining your proposed corrective action for this
issue. If you have any questions, please contact me at (202) 720-6945, or have a member of your
staff contact, Ernest Hayashi, Director, Farm and Foreign Agricultural Division, at
(202) 720-2887.
Agency’s Response




                    USDA’S



           FARM SERVICE AGENCY’S



         RESPONSE TO AUDIT REPORT
United States
Department of
Agriculture          February 22, 2011
Farm and
Foreign
Agricultural
Services             TO:            Gil H. Harden
Farm
                                    Assistant Inspector General
Service                              for Audit
Agency

Operations Review    FROM:          Philip Sharp, Acting Director
and Analysis Staff
                                    Operations Review and Analysis Staff
1400 Independence
Ave, SW
Stop 0540            SUBJECT: Audit 03601-28-KC (2): Recommendations for Preventing or Detecting
Washington, DC                Schemes or Devices Biomass Crop Assistance Program (BCAP)
20250-0540
                              Controls over Collection, Harvest, Storage, and Transportation
                              Matching Payments Program


                     This is the Farm Service Agency’s (FSA) response to your February 4 memorandum
                     requesting comments on the fast report of the subject audit.

                     FSA invited the Office of Inspector General (OIG), at the Beginning of Notice of
                     Funding Availability (NOFA) activities, to join with FSA in monitoring BCAP
                     expenditures, to focus on identifying questionable actions among program participants,
                     and to provide recommendations to FSA in advance of issuing the final BCAP regulation.

                     FSA appreciates the responsiveness of OIG to FSA’s request.

                     In contrast to the conventional practices of other agencies (where independent
                     examinations are conducted often after programs are put into service and operational for
                     some time), FSA sought OIG involvement early in BCAP so that unintended results
                     could be identified in advance and addressed before continuation of the full program.

                     The Presidential Directive required the BCAP NOFA to be implemented on an expedited
                     basis, in contrast to FSA’s normal and standard procedures. Upon approval of the Office
                     of Management and Budget in 2009, FSA issued the BCAP NOFA. Recognizing BCAP
                     was a new program, and anticipating that identifying controls to detect practices not yet
                     in existence would be a challenge that could result in limited program guidance to staff,
                     FSA determined new types of controls may be necessary, and that OIG review and
                     recommendations should be sought to provide valuable input when formalizing
                     applicable safeguards for the full program.

                     Therefore, FSA has instituted OIG recommendations in the circumstances outlined in this
                     report, and pledges to expand upon these safeguards to concur with the issuance of the
                     final OIG report.




                     USDA is an equal opportunity provider and employer.
Mr. Gil H. Harden
Page 2


Recommendation 1

Evaluate the circumstances of all three cases to determine whether such situations
constitute a scheme or device. (Before proceeding with corrective action actions on any
of the three cases, please coordinate with OIG Investigations.)

Agency Response

The State and County offices in Maine and California involved in the cases identified in this
report are closely examining the circumstances of each case to determine if the actions of these
BCAP participants constitute a scheme or device. FSA has received notice that OIG
Investigations has declined to open an investigation on the subject cases in California.
However, as recommended, the State and County committees will consult with OIG
investigations before taking any corrective actions in Maine.

Recommendation 2

Create new terms of agreement and/or guidance that address scheme or device more
comprehensively, and specifically prohibit schemes or devices of this nature. As part of
issuing a program handbook, include guidance that details procedures for investigations,
enforcement actions, penalties, and appeals related to scheme or device determinations.

Agency Response

The final rule for BCAP explicitly prohibits a number of practices described in this report
as potential schemes or devices and these practices are specifically defined as program
violations. As recommended, these changes are incorporated in the terms of the facility
agreement and will be further detailed in program policy documents.

In the facility agreement, new terms have been added to the qualified biomass conversion
facility elements (paragraph V of the agreement) so that the facility agrees to:

F. Purchase eligible material at a fair market price that is consistent for similar products
   regardless of whether the seller participates in BCAP or if the seller and purchaser are
   related entities.

O. Issue no settlement sheets for the purchase of eligible material that is commingled
   with ineligible materials.

P. Receive no payments or reimbursements from eligible material owners that are
   related to the eligible material matching payment, including any requirement that the
   eligible material owner re-pay a portion of the BCAP matching payment as a
   kickback, value-share, or similar payment, or charge the eligible material owner any
   administrative or similar fee.
Mr. Gil H. Harden
Page 3


Each provision above addresses an area of concern in the report, particularly those
regarding tiered pricing structures and a variety of kickback schemes.

In addition, FSA will issue before the end of the month handbook 1-BCAP to provide
program guidance consistent with the BCAP final rule. The handbook includes more
comprehensive policy on investigations, enforcement actions, penalties, and appeals
related to scheme and device determinations.

Recommendation 3

Create controls and compliance reviews procedures at the county office level designed to
detect and identify potential schemes or devices.

Agency Response

Handbook 1-BCAP will include enhanced guidance for compliance reviews of qualified
biomass conversion facilities and eligible material owners.

BCAP policy will also incorporate additional controls to ensure that fair market pricing is
being paid, including enhanced data collection from facilities by FSA as part of the
funding allocation process.

Further, FSA is developing a number of automated controls in BCAP matching payment
software to ensure the County Offices have proper documentation from eligible material
owners before approving applications and payment requests.
